                       OFFICE OF
               THE INSPECTOR GENERAL
                     U.S. NUCLEAR
               REGULATORY COMMISSION


            Special Evaluation of the Office of Investigations=
                 Role in Alleged Discrimination Cases

                      OIG-04-A-18      August 26, 2004




                   SPECIAL EVALUATION




All publicly available OIG reports (including this report) are accessible through
                               NRC=s website at:
             http://www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                          August 26, 2004




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum/RA/
                            Assistant Inspector General for Audits


SUBJECT:                    SPECIAL EVALUATION OF THE OFFICE OF
                            INVESTIGATIONS’ ROLE IN ALLEGED DISCRIMINATION
                            CASES (OIG-04-A-18)


Attached is the Office of the Inspector General’s audit report titled, Special Evaluation
Of The Office Of Investigations’ Role In Alleged Discrimination Cases.

The report reflects the results of our special evaluation to assess the role of the Office
of Investigations (OI) in alleged discrimination cases. We found that overall
stakeholders do not have an issue with OI’s methods and techniques but question
whether criminal investigations are needed for all potential discrimination cases.

NRC had planned to hire a contractor to examine OI’s procedures and techniques for
conducting alleged discrimination investigations. Such an action would have been
unnecessary and costly. The agency could have spent as much as $330,000 for a
product of questionable value. NRC ultimately decided to terminate the proposed
procurement.

This report makes three recommendations to address the issues identified.

Comments provided at the August 11, 2004, exit conference have been incorporated,
as appropriate, in our final report.

If you have any questions or wish to discuss this report, please call me at 415-5915 or
Tony Lipuma at 415-5910.

Attachment: As stated

cc:    W. Dean, OEDO
Distribution List

B. John Garrick, Chairman, Advisory Committee on Nuclear Waste
Mario V. Bonaca, Chairman, Advisory Committee on Reactor Safeguards
John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
Dennis K. Rathbun, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Patricia G. Norry, Deputy Executive Director for Management Services, OEDO
William F. Kane, Deputy Executive Director for Homeland Protection
  and Preparedness, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research
  and State Programs, OEDO
Ellis W. Merschoff, Deputy Executive Director for Reactor Programs, OEDO
Jacqueline E. Silber, Chief Information Officer
Michael L. Springer, Director, Office of Administration
Frank J. Congel, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Paul E. Bird, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
Office of Public Affairs, Region I
Office of Public Affairs, Region II
Office of Public Affairs, Region III
Office of Public Affairs, Region IV
                      Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases



EXECUTIVE SUMMARY

   BACKGROUND

         The U.S. Nuclear Regulatory Commission (NRC) is responsible for ensuring
         that civilian uses of nuclear power and materials in the United States are
         carried out with adequate protection of the public health and safety, the
         environment, and national security.

         While NRC is directly responsible for monitoring civilian uses of nuclear
         material and waste, it is physically impossible for NRC inspections to detect
         all health and safety issues. For this reason, it is critical that nuclear industry
         employees feel free to raise health and safety concerns without fear of
         retribution.

         If fear of retaliation kept workers from speaking out about possible hazards,
         nuclear safety would be jeopardized. As such, NRC’s statutory and
         regulatory scheme provides for civil and criminal sanctions that are designed
         to encourage licensee employees, also known as whistleblowers, to report
         unsafe practices to their management or the NRC without fear of retribution or
         discrimination in the workplace.

         On June 27, 1982, NRC established the Office of Investigations (OI) as part
         of an agency effort to improve the quality of its investigative work and to serve
         NRC’s overall mission. OI is generally responsible for conducting
         investigations of allegations of wrongdoing by licensees, applicants and their
         contractors and vendors. The Atomic Energy Act of 1954, as amended,
         provides that certain conduct is subject to criminal as well as civil sanctions
         (including conduct related to employee discrimination). The methods and
         techniques employed by OI are fundamentally the same, regardless of
         whether in the end, the matter is subject to civil sanctions - for example, a civil
         penalty - or is referred to the Department of Justice for consideration of
         criminal prosecution. OI supports the agency’s overall safety mission by
         ensuring that allegations of suspected wrongdoing by licensees are
         thoroughly, objectively, and independently investigated.

   PURPOSE

         The purpose of this evaluation was to determine if OI’s methods and
         techniques in addressing allegations of licensee discrimination were
         appropriate for the resolution of discrimination complaints.

   RESULTS IN BRIEF

         Credible investigations into allegations of intentional discrimination are
         essential in ensuring that NRC continues to meet its safety mission through
         its regulatory process. Stakeholders agree that OI has a role in this process,


                                                i
                  Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases



     but do not believe that NRC, and thereby OI, should investigate all potential
     discrimination cases. Industry stakeholders assert that the threshold for
     initiating an OI investigation is too low, whereas whistleblower stakeholders
     believe that it would be detrimental if the threshold was raised. Overall, the
     stakeholders do not have an issue with OI’s methods and techniques.

     NRC is implementing an interim enforcement policy to use Alternative Dispute
     Resolution in the enforcement program for discrimination and other
     wrongdoing cases, and NRC senior officials hope the new process will
     address some of the stakeholders’ concerns about investigations of alleged
     discrimination. Public commentors are supportive of the policy, and the
     agency plans to reevaluate its effectiveness after about 6 months to 1 year.

     NRC had planned to hire a contractor to examine OI’s procedures and
     techniques for conducting alleged discrimination investigations. Such an
     action would have been unnecessary and costly. The agency could have
     spent as much as $330,000 for a product of questionable value. OI’s
     methods and techniques are not the root cause of industry and whistleblower
     concerns. Rather, it is the need to use criminal investigations in all
     discrimination allegations. NRC ultimately decided to terminate the proposed
     procurement.

RECOMMENDATIONS

     The report makes three recommendations to address OI’s role in the
     allegation review process.

AGENCY COMMENTS

     The Commission and EDO staff provided comments on the report to provide
     additional information and clarification. We incorporated those comments as
     appropriate.




                                           ii
               Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases



ABBREVIATIONS AND ACRONYMS

       ADR      Alternative Dispute Resolution
       AEA      Atomic Energy Act of 1954, as amended
       ARB      Allegations Review Board
       CFR      Code of Federal Regulations
       DOL      Department of Labor
       MD       Management Directive
       NEI      Nuclear Energy Institute
       NRC      Nuclear Regulatory Commission
       OI       Office of Investigations
       OIG      Office of the Inspector General
       PCIE     President’s Council on Efficiency and Effectiveness




                                        iii
Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases




           [Page intentionally left blank.]




                         iv
                Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases



                             TABLE OF CONTENTS


EXECUTIVE SUMMARY............................................................................. i

ABBREVIATIONS AND ACRONYMS ........................................................iii

I.      BACKGROUND............................................................................... 1

II.     PURPOSE....................................................................................... 3

III.    FINDINGS ....................................................................................... 4

        A. OI’S METHODS AND TECHNIQUES ARE NOT THE ISSUE .................... 4

        B. CONTRACT TO REVIEW OI’S METHODS AND TECHNIQUES
           SHOULD NOT BE ISSUED ............................................................. 10

        C. PEER REVIEWS HELP ENSURE QUALITY INVESTIGATIONS .............. 13

IV.     CONSOLIDATED LIST OF RECOMMENDATIONS...................... 14

V.      AGENCY COMMENTS ................................................................. 15

APPENDIX

        A.       SCOPE AND METHODOLOGY ......................................... 17




                                            v
Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases




      [Page intentionally left blank.]




                         vi
                                  Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases




I. BACKGROUND

                     The U.S. Nuclear Regulatory Commission (NRC) is responsible for
                     ensuring that civilian uses of nuclear materials in the United States are
                     carried out with adequate protection of the public health and safety, the
                     environment, and national security. The scope of NRC’s responsibility
                     includes regulation of commercial nuclear power reactors; research, test,
                     and training reactors; and major fuel fabrication and production facilities.
                     NRC also issues licenses for medical, academic, and industrial uses of
                     nuclear material. Additionally, NRC has regulatory responsibilities for the
                     transportation, storage, and disposal of nuclear material and waste. And,
                     the agency has a role in combating the proliferation of nuclear material
                     worldwide.

                     Raising Safety Concerns Without Fear of Discrimination

                     While NRC is directly responsible for monitoring civilian uses of nuclear
                     material and waste, it is physically impossible for NRC inspections to
                     detect all health and safety issues. For this reason, it is critical that
                     nuclear industry employees feel free to raise health and safety concerns
                     without fear of retribution. Employees may raise concerns directly to
                     licensee1 managers or employees or they may choose to bring allegations
                     directly to NRC. An employee generally raises a concern with NRC if he
                     or she is not satisfied with the licensee’s resolution of the concern or is not
                     comfortable raising the concern internally. Employees may be
                     discouraged from raising these issues internally if they believe their
                     employer discriminates against those who do so. This phenomenon in the
                     working environment is termed the “chilling effect.”

                     If fear of retaliation kept workers from speaking out about possible
                     hazards, nuclear safety would be jeopardized. As such, NRC’s statutory
                     and regulatory scheme provides for civil and criminal sanctions that are
                     designed to encourage licensee employees, also known as
                     whistleblowers, to report unsafe practices to their management or the
                     NRC without fear of retribution or discrimination in the workplace.

                     Office of Investigations Established

                     On June 27, 1982, NRC established the Office of Investigations (OI) as
                     part of an agency effort to improve the quality of its investigative work and
                     to serve NRC’s overall mission. Before OI was established, the


1
    For this report, the term “licensee” includes licensees or applicants for licenses, or their contractors or vendors.




                                                               1
                               Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases



                  responsibility for investigating allegations of intentional wrongdoing2 by
                  NRC licensees was assigned to NRC’s former Office of Inspection and
                  Enforcement and regional NRC offices. The individuals conducting the
                  investigations from these offices had the appropriate technical expertise,
                  but many had little or no investigative training. Regarding its decision to
                  establish OI, the NRC submitted testimony prepared on August 2, 1988, to
                  the Subcommittee on Energy and Power, Committee on Energy and
                  Commerce, U.S. House of Representatives. Following is an excerpt from
                  that testimony –

                           The primary purpose for creating OI was to establish an
                           office of competent, trained investigators to develop
                           information relevant to NRC’s licensing and regulatory
                           determinations. OI performs its assigned function by
                           providing investigative facts relevant to whether there has
                           been intentional or willful violation of NRC requirements.
                           This provides important factual input which helps shape the
                           ultimate licensing and enforcement decisions the agency
                           makes. Therefore, the Commission considers the
                           investigative function to be a key and integral part of an
                           effective regulatory process, and OI to be an essential NRC
                           office.

                  OI’s responsibilities, and consequently the investigations it undertakes,
                  are not confined to so-called “criminal” investigations. Rather, OI is
                  generally responsible for conducting investigations of allegations of
                  wrongdoing by licensees, applicants, and their contractors and vendors.
                  The Atomic Energy Act (AEA) of 1954, as amended, provides that certain
                  conduct is subject to criminal as well as civil sanctions (including conduct
                  related to employee discrimination). The methods and techniques
                  employed by OI are fundamentally the same, regardless of whether in the
                  end, the matter is subject to civil sanctions - for example, a civil penalty -
                  or is referred to the Department of Justice for consideration of criminal
                  prosecution. The methods and techniques employed bring a level of rigor
                  and quality to OI’s product that is in keeping with the agency’s overall
                  enforcement process. The issues underlying the conduct of an OI
                  investigation are rooted in the health and safety purposes of the AEA, not
                  the employee protection and redress issues of interest under Section 211
                  of the Energy Reorganization Act.




2
 Wrongdoing is either (a) an intentional violation of regulatory requirements or (b) a violation resulting from careless
disregard of or reckless indifference to regulatory requirements, or both.


                                                           2
                                Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases



                    Organizationally, OI currently reports directly to NRC’s Deputy Executive
                    Director for Reactor Programs, Office of the Executive Director for
                    Operations. In fiscal year 2003, OI had on average 31 criminal
                    investigators and 8 operational support staff at its NRC headquarters
                    facility in Rockville, Maryland, and its four regionally based Field Offices.

                    Criminal Investigators

                    OI’s investigators are classified as criminal investigators (GG-1811) and
                    have on average 16 years of Federal law enforcement experience. By
                    Office of Personnel Management standards, Federal criminal investigators
                    focus on investigating alleged or suspected violations of criminal law. This
                    work primarily requires a knowledge of 1) the laws of evidence, 2) the
                    rules of criminal procedure, 3) precedent court decisions, and 4) the
                    application of investigative techniques. While there is a wide range of
                    work assignments throughout the Federal Government for criminal
                    investigators, there is a common application of several investigative
                    techniques, such as:

                        •    Interviewing or interrogating suspects and witnesses.
                        •    Searching for physical or documentary evidence or clues.
                        •    Preparing reports of investigations.

                    OI supports the agency’s overall safety mission by ensuring that
                    allegations of suspected wrongdoing by licensees are thoroughly,
                    objectively, and independently investigated. When OI concludes an
                    investigation and issues an investigative report substantiating licensee
                    wrongdoing, an NRC enforcement panel reviews the report and
                    associated evidence to determine if the information is sufficient to
                    conclude that wrongdoing occurred and to continue with the enforcement
                    process. The panel consists of both staff and management
                    representatives from the region, the program office,3 Office of
                    Enforcement, Office of the General Counsel, and OI.


II. PURPOSE

                    The purpose of this evaluation was to determine if OI’s methods and
                    techniques in addressing allegations of licensee discrimination were
                    appropriate for the resolution of discrimination complaints. See Appendix
                    A for more details on the scope and methodology of this evaluation.




3
    Office of Nuclear Reactor Regulation or Office of Nuclear Material Safety and Safeguards.


                                                            3
                   Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases




III. FINDINGS

          By statutory provision, NRC has broad authority to establish standards as
          necessary to protect the public health and safety – including the
          prohibition of discrimination against whistleblowers. The statute also
          provides for criminal sanctions for willful violation of, attempted violation
          of, or conspiracy to discriminate against any worker because the worker
          brought forward safety concerns. To fulfill its responsibilities, NRC
          employs OI to investigate allegations of discrimination. OI follows the
          President’s Council on Integrity and Efficiency guidelines in conducting its
          investigations. Although stakeholders have raised concerns about OI’s
          involvement in the process, their concern is not with OI’s methods and
          techniques. Instead, stakeholders are concerned about the use of
          criminal investigations for all discrimination cases. However, NRC plans
          to issue a contract to assess OI’s methods and techniques. Such a
          contract is unnecessary and costly.


  A. OI’S METHODS AND TECHNIQUES ARE NOT THE ISSUE

          The legal basis for prohibition of discrimination against whistleblowers is
          well established through the AEA, as amended, and it is NRC’s
          responsibility to protect employees from discrimination and retaliation for
          raising concerns bearing on nuclear safety. To accomplish this task, NRC
          directs OI to investigate allegations of discrimination when they are
          received from licensee employees. However, internal and external
          stakeholders have expressed concerns about OI’s involvement in these
          cases. Stakeholders’ concerns include the routine need for criminal
          investigations in what often may be no more than employment related
          disputes.

          Criminal Sanctions and Prosecution

          The AEA, as amended, established the legal basis for NRC’s prohibition of
          discrimination against whistleblowers. While the AEA gives NRC broad
          authority to establish standards as necessary to protect the public health
          and safety, it provides no specific provisions dealing with employee
          protection.

          In 1978, Congress enacted section 210 of the Energy Reorganization Act
          of 1974 to address personal remedies for employees who had been
          subjected to discrimination for reporting safety concerns. Section 210
          eventually became section 211 and provides a remedy to victims of
          discrimination through a process administered by the Department of Labor
          (DOL). DOL was given the authority to investigate an alleged act of



                                               4
                             Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases



                 discrimination thereby affording a remedy to the individual should the
                 allegation prove true. However, DOL’s new authority did not, in any way,
                 abridge NRC’s authority to, without delay, investigate alleged
                 discrimination and take appropriate action against the licensee-employer.

                 Thereafter, in 1982, Title 10, Code of Federal Regulations (CFR),
                 subsection (§) 50.74 was promulgated to specify that no licensee shall
                 discriminate against any worker because the worker brought forward
                 safety concerns. Further, 10 CFR § 50.111 notes that the AEA, as
                 amended, provides for criminal sanctions for willful violation of, attempted
                 violation of, or conspiracy to violate 50.7.

                 NRC and DOL have complementary, yet independent authorities and
                 responsibilities in protecting employees from discrimination and retaliation
                 for raising concerns bearing on nuclear safety (see Figure 1). DOL is
                 empowered to grant remedies directly to employees who have suffered
                 discrimination. NRC’s role is to determine whether a licensee has
                 intentionally violated NRC’s regulations regarding whistleblower protection
                 and whether the licensee’s employment practices are having a chilling
                 effect on would-be whistleblowers. NRC has the authority take action
                 against the employer and to do so immediately.


                 Figure 1

                                              NRC and DOL
                                          Complementary Roles
                                         In Discrimination Cases
                               NRC                                      DOL

               Employee files complaint with NRC.      Employee files complaint with DOL.

               Investigates (if appropriate) using     Investigates (if appropriate) using non-
               criminal investigators.                 criminal investigators.
               Makes discrimination determination.     Makes discrimination determination.

               Takes enforcement action against        Takes action to reinstate and get back
               employer (if appropriate) to correct    pay for employee (if appropriate).
               the safety and discrimination issue.
               Refers potential criminal issues to     No comparable authority.
               the Department of Justice.




4
  To cover all aspects of NRC’s regulations, the Commission promulgated identical employee protection regulations in
Parts 30, 40, 50, 60, 70, and 72. Part 50 (i.e., §50.7 and §50.111), which covers nuclear power plants and certain
fuel processing plants, is used as an example in this report.


                                                         5
                                Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases



                      Handling Allegations Through NRC’s Allegation Process

                      Individuals may bring safety concerns directly to NRC at any time and it is
                      the agency’s responsibility to respond to those concerns in a timely
                      manner. Upon receipt of an allegation, NRC follows specific actions per
                      its Management Directive and Handbook 8.8, Management of Allegations
                      (MD 8.8). The process essentially begins with an allegations review board
                      (ARB) meeting consisting of NRC officials such as representatives from
                      the Office of the General Counsel or regional counsel, OI, and the Office
                      of Enforcement. At the initial ARB meeting, the ARB assigns a priority for
                      an OI investigation. For both high and normal priority discrimination
                      cases, OI will conduct an initial interview of the alleger and any other
                      preliminary investigation deemed appropriate to understand the nature of
                      the allegation and the basic circumstances of the case. After OI obtains
                      this information, the ARB reconvenes and determines if the investigation
                      should be deferred5 or if OI should proceed with a full investigation. The
                      table in Figure 2 outlines these major steps.


Figure 2

    Step 1                      Step 2                            Step 3                          Step 4

    Initial ARB meeting:        OI performs initial alleger       Second ARB meeting:             - Case deferred pending
                                interview                                                         results of DOL process

    Initial priority assigned   Staff reviews OI transcript       Evaluation of allegation in     - OI proceeds with
                                of interview and other            relation to licensee history,   independent full
                                information gathered by OI        trends, and other               investigation
                                                                  information identified by
                                                                  OI or elsewhere                 - Supplementary action
                                                                                                  proposed considering
                                                                                                  overall licensee
                                                                                                  performance

                      By direction of the ARB, OI conducts investigations regarding allegations
                      that licensee officials have sought to harass and/or intimidate workers for
                      raising safety concerns. OI normally opens investigations based on the
                      ARB’s determination that a prima facie6 showing of discrimination has
                      been articulated. As such, OI has initiated investigations on about 67
                      percent of the discrimination allegations received by NRC from 1996 to
                      2002.7




5
  An investigation may be deferred for high or normal priority discrimination cases in which DOL is already pursuing
an investigation.
6
  Prima facie evidence is evidence that would, if uncontested, establish a fact or raise a presumption of a fact.
7
  Data from Discrimination Task Group Report issued April 2002.



                                                              6
                                Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases



                    Stakeholder Concerns

                    Stakeholders generally agree that OI has an investigative role in some
                    allegations of discrimination. Furthermore, whistleblower stakeholders
                    stated that without OI in the process there would be little deterrence from
                    whistleblower discrimination, taking away an avenue for whistleblowers to
                    express their concerns. Industry stakeholders have commented that the
                    threshold for initiating an OI investigation is far too low, yet whistleblower
                    stakeholders believe that if the threshold is raised, it will result in fewer
                    individuals coming forward with issues. The key, however, is to ensure
                    that NRC’s process ensures the free flow of information from employees
                    about potential safety concerns.

                             Industry Stakeholder Concerns with OI Investigations

                    The Nuclear Energy Institute (NEI) has expressed concerns about NRC
                    investigations of discrimination allegations. During a December 2003 OIG
                    interview, NEI officials opined that OI’s interviews are heavy-handed,
                    stressful, and further polarize the parties involved in an investigation of
                    alleged discrimination. NEI did not provide specific examples of the
                    heavy-handed techniques to which they alluded. NEI’s major concern,
                    however, was not the investigative techniques, but whether criminal
                    investigations are even needed when addressing allegations of
                    discrimination. In a letter to the NRC Chairman dated May 23, 2003,
                    NEI’s President/Chief Executive Officer suggested that an independent
                    assessment of OI “focus on the effectiveness of using criminal
                    investigative techniques to evaluate facts involved in what is, in essence,
                    an employment-related dispute. It should not evaluate whether OI’s
                    techniques are established techniques appropriate for criminal
                    investigations.” (emphasis added)

                    Morgan, Lewis & Bockius, LLP, a law firm for the nuclear industry, is
                    another stakeholder that expressed concerns to the NRC. On
                    December 18, 20008, the firm advised NRC that it had issues concerning
                    NRC’s allegation review process and the role OI should play in that
                    process. In a June 2004 discussion with OIG and again in a July 2004
                    letter, an official from the firm reiterated the same concerns stating that his
                    issues with the allegation process have nothing to do with OI -- but with
                    NRC’s involvement in investigating discrimination issues. He noted that
                    OI is a professional organization using traditionally well-accepted criminal
                    investigative techniques – the issue is not OI’s investigative methods and
                    techniques.




8
    Letter from Jay M. Gutierrez to Richard W. Borchardt, Director, Office of Enforcement, dated December 18, 2000.


                                                            7
                                 Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases



                             Whistleblower Stakeholder Concerns with OI Investigations

                    In December 2003, a representative from the Union of Concerned
                    Scientists met with OIG to discuss NRC’s allegation review process and
                    OI’s role in that process. The representative suggested ways to improve
                    the allegation review process. However, he did not mention OI
                    investigative methods and techniques and did not suggest that OI
                    interviews were conducted inappropriately.

                    Clifford, Lyons & Garde, a law firm representing whistleblowers, is also a
                    stakeholder that expressed concerns to NRC on at least two occasions. A
                    representative of the firm provided written comments to NRC on
                    December 28, 2000, and testimony to the NRC Commission on
                    December 17, 2002. In the written comments,9 the firm advised NRC that
                    “intervention and investigation by the Office of Investigation[s] (OI) should
                    be reserved for those cases in which there is prima-facie evidence of
                    intent to retaliate by the decision-maker and a refusal by the licensee to
                    take timely and appropriate corrective action.” During Commission
                    testimony, the same representative noted concerns with the impact of a
                    criminal investigation and the potential results of an OI investigation (i.e.,
                    someone is found guilty). This stakeholder did not address OI’s
                    investigative methods and techniques as a concern in either
                    communication with the agency.

                             Senior NRC Officials’ Concerns with OI Investigations

                    NRC Commissioners advised OIG that through a staff requirements
                    memorandum, they were seeking to know whether there were alternative
                    and better ways to conduct investigations of alleged discrimination and to
                    serve the needs of the agency, hopefully without the perceived stress and
                    angst of the present process. The staff requirements memorandum was
                    issued in response to a recommendation from NRC’s Discrimination Task
                    Group. Based on stakeholder comments, the Task Group recommended
                    a review of OI’s investigative techniques.

                    During OIG’s discussion with one Commissioner, OIG pointed out that
                    investigative standards require that investigations be fair and objective.
                    The Commissioner advised that he did not hear stakeholders say that
                    being treated fairly and objectively was an issue. He is, however, looking
                    for a more sensitive approach to conducting investigations of alleged
                    discrimination. The Commissioner said that some OI investigators come
                    to NRC having dealt with significant criminal figures and now they are put
                    in an atmosphere of interviewing white-collar managers and/or the person
                    making the allegation of discrimination. Further, the Commissioner’s
                    assistant noted that people get nervous when OI has its interviews

9
    Letter from Billie Pirner Garde to Bill Borchardt, Director, Office of Enforcement, dated December 28, 2000.


                                                             8
         Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases



transcribed. Prior to meeting with OIG, the Commissioner’s assistant was
not aware that the Office of Enforcement and the Office of the General
Counsel urge OI to transcribe its interviews.

Alternative Dispute Resolution

NRC is implementing an interim enforcement policy regarding the use of
Alternative Dispute Resolution (ADR) in the enforcement program for
discrimination and other wrongdoing cases. The policy is outlined in a
Federal Register Notice dated August 13, 2004.

ADR is a term that refers to a number of processes, such as mediation
and facilitated dialogues, that can be used to assist parties in resolving
disputes. ADR techniques involve using a skilled third party neutral, and
most are voluntary processes in terms of the decision to participate, the
type of process used, and the content of the final agreement. Federal
agency experience with ADR has demonstrated that the use of ADR can
result in more timely and economical resolution of issues, more effective
outcomes, and improved relationships.

NRC’s interim policy consists of a pilot program that will use ADR for
cases involving (1) alleged discrimination for engaging in protected activity
prior to an NRC investigation (Early ADR); and, (2) both discrimination and
other wrongdoing after OI has completed an investigation. If an ARB
determines a prima facie case exits, the ARB will normally recommend the
parties be offered the opportunity to use Early ADR.

Senior NRC officials believe that the pilot ADR process may address
some of the concerns that stakeholders expressed about investigations of
alleged discrimination. The August 13, 2004, Federal Register Notice
stated that all commentors (power reactor licensees or representatives of
power reactor licensees) supported the policy and provided comments for
clarification or for consideration after the program has operated for a
period of time. A senior NRC official told OIG that the agency would
reevaluate the ADR and allegation processes after the pilot program has
been in effect for about 6 months to 1 year.

Summary

Credible investigations into allegations of intentional discrimination are
essential in ensuring that NRC continues to meet its safety mission
through its regulatory process. OI is tasked by the ARB to conduct an
investigation after the ARB determines that a prima facie showing of
discrimination has been articulated. Stakeholders agree that OI has a role
in this process, but do not believe that NRC, and thereby OI, should
investigate all potential discrimination cases. Industry stakeholders assert
that the threshold for initiating an OI investigation is too low, whereas


                                     9
                Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases



       whistleblower stakeholders believe that it would be detrimental if the
       threshold was raised. Overall, the stakeholders do not have an issue with
       OI’s methods and techniques.

       NRC is implementing an interim enforcement policy to use ADR in the
       enforcement program for discrimination and other wrongdoing cases, and
       NRC senior officials hope the new process will address some of the
       stakeholders’ concerns about investigations of alleged discrimination.
       Public commentors are supportive of the policy, and the agency plans to
       reevaluate its effectiveness after about 6 months to 1 year.

       RECOMMENDATION

       OIG recommends that the Executive Director for Operations –

       1. Reevaluate ADR’s effectiveness and its impact on perceptions about
          NRC’s process for investigating discrimination allegations after the pilot
          program concludes.


B. CONTRACT TO REVIEW OI’S METHODS AND TECHNIQUES SHOULD NOT
   BE ISSUED

       Based on a recommendation from NRC’s Discrimination Task Group and
       Commission direction, NRC plans to hire a contractor to examine OI’s
       methods and techniques for conducting alleged discrimination
       investigations. OIG’s review determined that OI’s methods and
       techniques are not the issue. The Discrimination Task Group’s findings
       evinced this same conclusion. Therefore, issuing such a contract is
       unnecessary and costly.

       Discrimination Task Group Chartered to Identify Stakeholder
       Concerns

       In April 2000, NRC’s Executive Director for Operations chartered a
       Discrimination Task Group (Task Group) to evaluate NRC’s processes for
       handling licensee discrimination cases. The Task Group issued its report
       in April 2002 and recommended that OI investigators continue to use
       appropriate, accepted investigative techniques for the review of
       discrimination issues. This recommendation was made even in light of the
       Task Group’s finding that some stakeholders believe discrimination cases
       involving white-collar managers accused of taking subtle employment
       actions do not warrant the perceived “heavy handed” criminal investigative
       approach employed by OI. The stakeholders believe that OI’s techniques
       are appropriate for investigations other than those related to discriminatory
       misconduct.



                                           10
         Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases



The Task Group noted that industry stakeholders commented that the
NRC investigation/enforcement process is overly stressful. A major
contributor to this stress is the fact that individuals found to have
deliberately engaged in discrimination are subject to criminal prosecution
by the Department of Justice. Industry stakeholders believe that criminal
prosecution of these violations would be excessive and inappropriate.
The Task Group found it impractical to decriminalize employee protection
regulations regarding discrimination – particularly since the criminal
treatment is a result of a statutory provision. While the Task Group’s
findings demonstrate that the issue is not OI’s methods and techniques,
the Task Group recommended that an assessment be performed of OI’s
investigative techniques used in discrimination investigations.

As a result of the Task Group’s recommendation, in a March 26, 2003,
staff requirements memorandum, the Commission directed the staff to
perform an assessment of OI’s investigative techniques. The staff was
directed to –

        perform an assessment of the investigative techniques used by the
       Office of Investigations (OI). In this connection, the Commission
       understands that DOL generally undertakes its investigations using
       informal interviews and does not commonly resort to criminal
       investigative techniques. Although such an evaluation of OI
       practices might start with a self-assessment, advice from an
       independent group should also be sought. The independent group
       should report its recommendations to the Commission through the
       EDO.

NRC’s Proposed Contract Will be Costly and of Questionable Value

To fulfill the Commission’s direction, NRC staff issued a request for
proposal to hire a contractor to examine OI’s procedures and techniques
for conducting alleged discrimination investigations. More specifically, the
request for proposal states that “. . .NRC is seeking a contractor capable
of assessing NRC’s investigative procedures, and techniques, and their
applications, to determine the intensity of normal investigations, the effects
of the interviewing techniques on interviewees, and the effectiveness of
those procedures and techniques, and their applications in achieving the
Agency’s goals.”

The proposed work expects a contractor to review 1) OI’s investigative
methods, procedures, standards, and techniques and 2) the use of such
by three other Federal agencies (e.g., the Department of Labor, the Food
and Drug Administration, and Office of the Special Counsel or the




                                    11
         Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases



Environmental Protection Agency) for comparison with those of OI. NRC’s
proposed contract also expects the contractor to interview whistleblower
and industry stakeholders. However, these stakeholders have already
provided similar information to the agency and have stated that OI’s
methods and techniques are not the issue.

Proposed Contract Does Not Focus on Root Cause

NRC’s proposed contract does not focus on the underlying stakeholder
concern, which is using criminal investigations for all discrimination cases.
The chairman of the Task Group advised that the number of substantiated
cases is low and that the Task Group labored over an appropriate
recommendation, finally deciding to recommend a review of OI’s methods
and techniques. He said that the Task Group was searching for a better
way to conduct investigations of alleged discrimination.

Agency Action

In May 2004, OIG informed the agency of concerns about the proposed
contract, and the agency decided to suspend contracting action. During
an exit conference in August 2004, the agency advised that it had
reevaluated the need for the contract and the proposed contracting action
was terminated. The agency provided documentation to support the
termination.

Summary

NRC’s plan to hire a contractor to examine OI’s procedures and
techniques for conducting alleged discrimination investigations is
unnecessary and costly. OI’s methods and techniques are not the root
cause of industry and whistleblower concerns. Rather, it is the need to
use criminal investigations in all discrimination allegations. As a result, the
agency may spend as much as $330,000 for a product of questionable
value. [The agency subsequently terminated the proposed contracting
action.]


RECOMMENDATION

OIG recommends that the Executive Director for Operations –

2. Terminate the pending procurement action seeking a contractor to
   conduct an assessment of OI’s methods and techniques.
   [Recommendation closed when NRC terminated the Request for
   Procurement Action.]




                                    12
                Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases




C. PEER REVIEWS HELP ENSURE QUALITY INVESTIGATIONS

       During the course of this review, OIG noted that OI conducts annual self-
       assessments of its four regional offices, but there is no independent
       review of the overall quality of OI’s investigative work. A peer review from
       another Federal law enforcement organization could help provide
       assurance about the integrity and quality of OI’s investigative operations.
       The President’s Council on Integrity and Efficiency (PCIE) uses a peer
       review process enabling Federal law enforcement entities within the
       Inspector General community to conduct independent reviews to ensure
       compliance with investigative standards. Although OI is not a PCIE
       member, it does follow PCIE’s investigative standards. As such, PCIE
       would be an excellent resource to consider for an OI peer review. Based
       on OIG’s own observation of the beneficial aspect of undergoing a peer
       review to assess its operations, a PCIE peer review would be beneficial.

       RECOMMENDATION

       OIG recommends that the Executive Director for Operations –

       3. Request a PCIE peer review to assess OI’s operations.




                                           13
                 Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases



IV. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations –

        1. Reevaluate ADR’s effectiveness and its impact on perceptions about
           NRC’s process for investigating discrimination allegations after the pilot
           program concludes.

        2. Terminate the pending procurement action seeking a contractor to
           conduct an assessment of OI’s methods and techniques.
           [Recommendation closed when NRC terminated the Request for
           Procurement Action].

        3. Request a PCIE peer review to assess OI’s operations.




                                            14
               Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases



V. AGENCY COMMENTS

       At an exit meeting on August 11, 2004, agency staff provided comments
       on the draft report. We modified the report as we determined appropriate
       in response to the comments.




                                          15
Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases




        [Page intentionally left blank.]




                           16
                Special Evaluation of the Office of Investigations’ Role in Alleged Discrimination Cases


                                                                                          APPENDIX A


SCOPE AND METHODOLOGY

       The overall objective of this evaluation was to determine if the Office of
       Investigations’ (OI) methods and techniques in addressing allegations of
       licensee discrimination were appropriate for the resolution of
       discrimination complaints. This evaluation was a collaborative effort
       teaming audit and investigative staff.

       The scope of this review was limited to OI’s involvement in discrimination
       allegations. In conducting this evaluation, the OIG evaluation team
       reviewed Commission documents, legislation, legal briefs, and other
       relevant reports and documentation to gain a historic as well as a current
       perspective of OI’s role in the discrimination review process. The
       evaluation team also met with the NRC Chairman and Commissioners, the
       Executive Director for Operations, and internal stakeholders, such as
       officials from the Office of Investigations, the Office of Enforcement, and
       the Office of the General Counsel. In addition, the evaluation team
       garnered input from various external stakeholders, such as officials from
       the Department of Energy, the Department of Justice, the Department of
       Labor, the Nuclear Energy Institute, and the Union of Concerned
       Scientists.

       The major contributors to this report were Anthony Lipuma, Team Leader;
       James Coady, Team Leader; Veronica Bucci, Senior Special Agent; and
       Sherri Miotla, Audit Manager. This work was conducted from December
       2003 through June 2004.




                                           17
